Report No. D-2007-059     February 9, 2007




      Vendor Pay Disbursement Cycle,
         Air Force General Fund:
           Financial Accounting
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
FFMIA                 Federal Financial Management Improvement Act (1996)
FAR                   Federal Acquisition Regulation
FASAB                 Federal Accounting Standards Advisory Board
GAAP                  Generally Accepted Accounting Principles
GAFS-BL               General Accounting and Finance System–Base Level
GAFS-R                General Accounting and Finance System–Rehost
GAO                   Government Accountability Office
IAPS                  Integrated Accounts Payable System
MOCAS                 Mechanization of Contract Administration Services
OMB                   Office of Management and Budget
PCIE                  President’s Council on Integrity and Efficiency
SBR                   Statement of Budgetary Resources
SFFAS                 Statement of Federal Financial Accounting Standards
USSGL                 United States Standard General Ledger
                     Department of Defense Office of Inspector General
Report No. D-2007-059                                                                    February 9, 2007
     (Project No. D2004-D000FD-0040.003)

            Vendor Pay Disbursement Cycle, Air Force General Fund:
                            Financial Accounting

                                         Executive Summary

Who Should Read This Report and Why? Air Force and Defense Finance and
Accounting Service personnel who are responsible for financial accounting should read
this report. This report discusses the need for improving internal control for recognizing,
posting, and programming edit checks to ensure compliance with laws and regulations,
and tracing supporting documents to the transactions recorded in the Air Force
accounting records. The improvements are needed for the Air Force to provide
reasonable assurance that periodic reports, such as the SF-133, “Report on Budget
Execution and Budgetary Resources,” and Air Force financial statements are reliable and
reflect compliance with laws and regulations.

Background. Management is responsible for establishing and maintaining internal
control to assure effective and efficient operations, reliable financial reporting, and
compliance with laws and regulations. The Inspector General Act of 1978, as amended,
provides for the independent review of agency programs and operations in accordance
with generally accepted government auditing standards, which require audit to report on
internal controls and compliance with laws and regulations. Such a review of the vendor
pay disbursement cycle spans the acquisition; funding; delivery, receipt, and acceptance;
payment; and recording of the financial transactions in the official accounting records.
This is the fourth in a series of five reports on internal control of the Air Force General
Fund vendor pay disbursement cycle. This report identifies internal control weaknesses
in the recording of transactions in the Air Force accounting records that are used to
prepare financial reports and statements.
Results. Internal control was not effective to ensure that transactions processed in the
acquisition of goods and services were properly accounted for in Air Force accounting
records. Specifically, all transactions were not recognized, 1 posted, subjected to edit
checks to ensure compliance with laws and regulations, and traceable to supporting
documentation. As a result, the risk is high that periodic reports and annual financial
statements were unreliable and materially misstated in FYs 2003 and 2004. Left
uncorrected, the internal control weaknesses could affect future reports, adversely
affecting those who use the reports in their decision-making. The Assistant Secretary of
the Air Force (Financial Management and Comptroller) and Defense Finance and
Accounting Service should initiate changes that will integrate financial systems so that
data can be entered and processed to accurately record financial information.



1
    Recognition is defined as the formal recording of an item in the records and financial statements as an
    asset, liability, expense, revenue, or similar element.
Management Comments and Audit Response. The Director, Air Force Accounting
Policy and Compliance (Financial Management) responded for the Assistant Secretary of
the Air Force (Financial Management and Comptroller). He provided general comments
to the report and agreed to work with the DFAS Denver office on our recommendation to
ensure policy is implemented on systemic changes stated in the first five
recommendations.

The Central Site Director, Defense Finance and Accounting Service, Denver, partially
concurred with one recommendation, nonconcurred with four recommendations and
deferred to the Air Force on one recommendation. The Director stated that DFAS would
like to evaluate the potential for daily interfaces of receipt transactions to ensure more
timely posting to the general ledger for most of the accounts payable records in the
Mechanization of Contract Administration Services system. However, the Director did
not agree that the findings constitute a high risk as presented in the audit, stating that the
sample of 45 items was not a true representation of the total contracts. He stated that
they believe that the internal controls are adequate and the related risk is low. The
Director further stated that the systems reviewed during the audit (Integrated Accounts
Payable System and the Mechanization of Contract Administration Services system)
should be considered subsidiary ledgers of the Air Force’s accounting system, and that
reference numbers (invoice number, receipt reference) are not typically posted in the
accounting system. He further stated all financial transactions are posted to the general
ledger within the appropriate month, and that any transactions not posted as part of the
daily interface are included in the end of month accrual process. We disagree that these
conditions do not constitute a high risk because our assessment was based on the
Government Accountability Office and President’s Council on Integrity and Efficiency
Financial Audit Manual criteria for conducting a control sample test of internal control
and compliance with laws and regulations. The criteria states that in a sample of 45
items, one defect does constitute a high risk that controls are not effective. We also do
not agree that the internal controls are adequate. We attempted to trace the recording of
the budgetary and proprietary transactions from the supporting documents to the
transactions posted in the Air Force standard general ledger. We could not trace
numerous transactions because adequate source document references were not in the
supporting General Accounting and Finance System–Base Level transactions. In
addition, generally accepted accounting principles do not state that transactions should be
posted in the appropriate accounting month. They require transactions to be recognized
on the date the financial event occurred and matched to the accounting period in which
the event occurred. We identified numerous budgetary and proprietary transactions
where the date of the financial event was not recognized as the date of the transaction.

We request the Assistant Secretary of the Air Force (Financial Management and
Comptroller) and the Central Site Director, Defense Finance and Accounting Service,
Denver, reconsider their positions. We request all comments to the final report by April
9, 2007. See the Finding section of the report for a discussion of management comments
to the finding and recommendations, and the Management Comments section of the
report for the complete text of the comments.




                                              ii
Table of Contents

Executive Summary                                    i

Background                                          1

Objective                                           2

Finding
     Recording Transactions in Accounting Records    3

Appendixes
     A. Scope and Methodology                       19
          Prior Coverage                            20
     B. Critical Guidance                           21
     C. Financial Reports and Statements            24
     D. Contracting Actions Selected for Review     26
     E. Report Distribution                         29

Management Comments
     Department of the Air Force                    31
     Defense Finance and Accounting Service         32
Background
          This is the fourth in a series of five audit reports on the effectiveness of internal
          control related to the Air Force General Fund vendor pay disbursement cycle.
          The first report in this series, “Report on Vendor Pay Disbursement Cycle, Air
          Force General Fund: Contract Formation and Funding” (D-2006-056),
          March 6, 2006, covered the internal control related to contract formation and
          followup, with the focus on the contracting officer’s role and responsibility. The
          second report in this series, “Vendor Pay Disbursement Cycle, Air Force General
          Fund: Funds Control“(D-2006-085), May 15, 2006, addressed the fund holder’s
          responsibilities in the review of the execution of their budget and the status of
          funds. The third report in this series, “Vendor Pay Disbursement Cycle, Air
          Force General Fund: Payments to Vendors,” (Project No. D2004-D000FD-
          0040.002), June 20, 2006, addressed the certifying officers’ and accountable
          officials’ responsibility in paying vendors on time and maintaining effective cash
          management practices. This report identifies internal control weaknesses in the
          processing and recording of financial transactions in the Air Force general ledger.

          Management is responsible for establishing and maintaining internal control to
          assure effective and efficient operations, reliable financial reporting, and
          compliance with laws and regulations. The Inspector General Act of 1978, as
          amended, provides for the independent review of agency programs and operations
          in accordance with generally accepted government auditing standards which
          require audit to report on internal controls and compliance with laws and
          regulations. Such a review of the vendor pay disbursement cycle spans the
          acquisition; funding; delivery, receipt, and acceptance; payment, and recording of
          the financial transactions in the official accounting records.

          Three types of internal controls exist: compliance, operations, and financial
          reporting. In this audit, we conducted a series of control sample tests related to
          the three types of internal controls as presented in the Government Accountability
          Office (GAO) and President’s Council on Integrity and Efficiency (PCIE)
          Financial Audit Manual. In accordance with these guidelines, 1 we randomly
          selected 45 contracting actions for a comprehensive examination of:

                   •   the nature and funding of the contracts;

                   •   delivery, receipt, and acceptance;

                   •   payment; and

                   •   financial recording of the related budgetary and proprietary
                       transactions in the official accounting records.

          In a sample of 45 items, one defect indicates that the risk is high that the relevant
          internal control is not effective. Depending on the type and nature of the internal


1
    GAO/PCIE Financial Audit Manual, section 400, figure 450.1, “Sample Sizes and Acceptable Numbers
    of Deviations,” July 2004.



                                                   1
    control deviation, the internal control defect might be significant as a separate
    finding or treated as one of a group of like errors and related causes.


Objective
    Our overall audit objective was to assess internal controls and compliance with
    laws and regulations pertaining to the vendor pay disbursement cycle in the Air
    Force General Fund and supported activities. See Appendix A for a discussion on
    the scope and methodology, Appendix B for critical guidance used in this audit,
    Appendix C for an explanation of the financial reports and statements discussed
    in the report, and Appendix D for a complete list of the 45 contracting actions
    randomly selected for examination.




                                          2
                    Recording Transactions in Accounting
                       Records
                    Internal control was not effective to ensure that transactions processed in
                    the acquisition of goods and services were properly recorded in Air Force
                    accounting records. All transactions were not recognized, posted, or
                    subjected to edit checks to ensure compliance with laws and regulations,
                    and were not traceable to supporting documentation. Specifically:

                        •    Transactions were not recognized the date that financial events
                             transpired.

                        •    Contract holdbacks 2 and unfunded liabilities were not posted.
                        •    Internal edits 3 did not exist to ensure that all liabilities were posted
                             to the accounting records in compliance with laws and regulations.

                        •    Transactions could not be traced to the source documents to
                             support the accounting entries in the United States Standard
                             General Ledger (USSGL) for the delivery of goods and services,
                             and payments to vendors.

                    Internal control was not effective because the Air Force and Defense
                    Finance Accounting Service (DFAS) systems 4 were not designed and
                    integrated, and procedures were not in place, to ensure the recording of all
                    necessary information to properly report accounting data. As a result, the
                    risk is high that periodic reports and annual financial statements were
                    unreliable and materially misstated in FYs 2003 through 2004. Left
                    uncorrected, the internal control weaknesses could impact future reports,
                    adversely affecting those who use the reports for making decisions.


Critical Guidance and Financial Reports
           See Appendix B for the guidance that is critical to this report and finding. See
           Appendix C for a list of the financial reports and statements, and their uses, as
           they pertain to this finding.



2
    Holdbacks are the amounts withheld from grantees or contractors pending completion of related
    contracts.
3
    Automated internal edits are a form of programmed control technique that forms the basis for application
    controls directly related to individualized computerized applications. Application controls help ensure
    that transactions are valid, properly authorized, and completely and accurately processed and reported.
4
    The systems include the: General Accounting and Finance System–Rehost; General Accounting and
    Finance System–Base Level; Integrated Accounts Payable System; and Mechanization of Contract
    Administration System.



                                                       3
Internal Control
           Internal control was not effective to ensure that transactions processed in the
           acquisition of goods and services were properly accounted for in the Air Force
           accounting records. All transactions were not recognized, posted, or subjected to
           edit checks to ensure compliance with laws and regulations, and were not
           traceable to supporting documentation. Those conditions existed because of
           internal control weaknesses in the design and integration of the General
           Accounting and Finance System–Rehost (GAFS-R), General Accounting and
           Finance System–Base Level (GAFS-BL), Integrated Accounts Payable System
           (IAPS), and Mechanization of Contract Administration Services (MOCAS)
           systems.

           Recognizing the Financial Event. Budgetary and proprietary transactions were
           not recognized as of the date, and in the financial reporting period, that financial
           events transpired. Non-recognition of the date that financial events transpired
           also affected Air Force compliance with generally accepted accounting principles
           (GAAP) in accounting for foreign currency transactions. Specifically:

               •    Budgetary undelivered orders–obligations, unpaid were not recognized
                    on the date that contracting actions were executed (financial event)
                    (9 contracting actions).

               •    Budgetary delivered orders–obligations, unpaid; and the proprietary
                    accounts payable were not recognized as of the date that goods or services
                    were received (financial event) (24 contracting actions).

               •    Budgetary delivered orders–obligation, paid; and the proprietary Fund
                    Balance with Treasury transactions were not recognized as of the date that
                    vendors were paid (financial event) (26 contracting actions).

           GAFS-R can accommodate recognition of prior period transactions so long as the
           transactions are processed before the closeout of the accounting records in the
           subsequent period. However, DFAS used the date and reported the budgetary and
           proprietary transactions in the period that the transactions were loaded and
           recognized in GAFS-R. The identified deficiencies affected both the budgetary
           and proprietary general ledger accounts used in the preparation of the Report on
           Budgetary Execution (SF-133), the Statement of Budgetary Resources, the
           Statement of Net Cost, the Statement of Changes in Net Position, and the Balance
           Sheet. For example, in two contracting actions 5 the dates liabilities were
           recorded in the GAFS-R general ledger were 127 and 167 days later than the
           dates that performance occurred. In both cases, the liabilities were not recognized
           in the fiscal year performance was made, thus understating the assets, liabilities,
           and expenses of the period affecting management’s completeness assertion.
           Those deficiencies, created by the non-recognition of the transactions as of the
           date that financial events transpired, adversely affected management’s ability to

5
    On sample number 5 the invoice had a ship date of 09/10/2003 and an effective date in the general ledger
    of 01/15/2004 (127 days); on sample number 25, the invoice had a performance period end date of
    09/05/2003 and an effective date in the general ledger of 02/19/2004 (167 days).



                                                      4
           assert on the existence, completeness, and rights and obligations of the
           transactions. 6 As a result, periodic reports and annual financial statements may
           have been materially misstated.

                    Foreign Currency. In addition, DFAS personnel did not account for and
           recognize foreign currency transactions in accordance with GAAP. Specifically,
           DFAS did not initially measure the foreign currency fluctuation gain or loss as of
           the date goods or services were received. In three of the contracting actions
           examined, DFAS processed and paid invoices submitted for payment in Japanese
           yen. 7 In each case, DFAS computed the losses based on the exchange rate as of
           the settlement date. The settlement date is the date a vendor is paid. However,
           the initial measurement of the gain or loss was not computed and recognized as of
           the date of the payable. For two contracting actions, the assets, if booked, would
           have been understated as of the initial measurement date. In a third contracting
           action, the asset would have been overstated. 8

           Contract Holdbacks. For one contracting action reviewed, DFAS personnel did
           not post contract holdbacks. 9 The Federal Acquisition Regulation (FAR) and
           Defense Federal Acquisition Regulation Supplement provide for contract
           holdbacks under various conditions. The holdbacks in this report relate to
           FAR 52.216-8, “Fixed Fee,” which limits the fixed fee a vendor can be paid
           without contracting officer approval to 85 percent of the amount the vendor can
           earn. However, amounts that are held back remain the liability of the
           Government and should be recognized in the accounting records as an “other
           liability.” The vendor reported an amount held back for fixed fees earned to
           comply with the contract terms. DFAS personnel paid the vendor the net amount
           owed, but did not report the holdbacks to GAFS-BL for posting in the accounting
           records.

           Unfunded Liabilities. In two other contracting actions, DFAS personnel did not
           post the accounts payable required to recognize unfunded liabilities in the
           proprietary general ledger. The Statement of Federal Financial Accounting
           Standards No. 1, “Accounting for Selected Assets and Liabilities,” requires
           disclosure of a liability in the accounting records even when budgetary resources
           do not exist. Unfunded liabilities can lawfully exist where Congress has
           authorized the Government to enter into contracts in advance of appropriations,
           such as certain civil works contracts let by the U.S. Army Corps of Engineers.
           However, in this audit, we identified the existence of unfunded liabilities related
           to contracts that were potentially improperly executed or inadequately funded.
           Accounts payable should have been posted for amounts the vendors earned but
           were not funded:
6
    See appendix B for an explanation of the existence, completeness, and rights and obligations assertions.
7
    Sample numbers 11, 27, and 33. All actions were for capital improvement to property, plant, and
    equipment.
8
    In GAFS-R, accounts payable are all expensed at the transaction level. In our opinion the contracting
    actions that we examined related to improvements to property, plant and equipment, and the cost of those
    improvements should have been capitalized. However, our audit scope did not extend to determining
    whether the expense and property, plant, and equipment asset accounts were subsequently adjusted by
    journal entry.
9
    Sample number 36.



                                                       5
               •    prior to the execution date of the delivery orders, 10 and

               •    to adequately cover the cost incurred on contract to pay for delivery or
                    performance against a specific line item.

           Because the contract holdbacks and unfunded liabilities were not posted, Air
           Force liabilities were understated. Moreover, if the accounts payable was posted
           to recognize the unfunded liability, DFAS system edit checks could have been
           created to ensure compliance with laws and regulations

           Edit Checks. System edits did not exist to check compliance with laws and
           regulations, and to ensure that unrecorded accounts payable were recognized in
           the period and on the date that goods and services were received. System edit
           checks were needed to ensure all liabilities were posted and recognized in the
           GAFS-BL and GAFS-R systems. Specifically, system edit checking is needed
           because:

               •    unfunded liabilities were not posted in the accounting records to recognize
                    the existence, completeness, rights and obligations, and compliance with
                    laws and regulations; and

               •    accounts payable transactions were not posted in accounting records to
                    recognize the existence, completeness, and rights and obligations of
                    account balances.

           In two contracting actions, unfunded liabilities were not recognized in the
           accounting records. We addressed the internal control recognition and posting
           weaknesses in the preceding sections. If management takes corrective action on
           both weaknesses, and unfunded liabilities are reported in the future, system edit
           checks can be executed to notify Air Force financial managers when an unfunded
           liability is reported. These system edit checks are possible because the corrective
           actions would:

               •    recognize, based on the date that financial events transpired, when goods
                    were delivered or services were rendered prior to the recognition of the
                    date that the contract was executed and obligation was incurred; and

               •    post the accounts payable to the proprietary accounts without a
                    corresponding entry against the budgetary accounts, indicating a liability
                    was potentially incurred in advance of the appropriation or obligation.

           A system edit check based on these rules could effectively notify management
           when an unfunded liability is reported, thus requiring management followup to
           determine why performance occurred prior to, or in excess of, the recorded
           obligation.

           In three contracting actions, accounts payable transactions were not posted in the
           accounting records. DFAS posted disbursement transactions in FY 2004 under

10
     Sample numbers 4 and 26. See also our Report on Vendor Pay Disbursement Cycle, Air Force General
     Fund: Contract Formation and Funding (D-2006-056), finding B.



                                                    6
            what DFAS refers to as “straight pay” transactions. The posting of straight pay
            transactions allows posting and recognition of the disbursement while the
            accounts payable is bypassed. As a result, Air Force receipt of services in
            FY 2003 was not recognized in the FY 2003 end-of-year financial statements. 11
            During the 1st and 2nd quarters FY 2004, two deficiencies existed in each period
            where the payables were not posted, and thus understated the liabilities in the
            interim reports. A system edit check is necessary to notify personnel when an
            accounts payable transaction is bypassed and is required to recognize the payable
            before the disbursement is processed.

            Locating Source Documents. Budgetary and proprietary transactions did not
            provide a reference to trace the transactions to source documents. Source
            document references to receiving documents for tangible goods, invoices for
            services, or vouchers for payments, were not reflected in the GAFS-BL and
            GAFS-R transactions. In our examination of the 45 contracting actions, we could
            not trace numerous transactions to the budgetary and proprietary accounts shown
            below. While we could not conclusively determine whether the transactions
            existed, 12 neither could we prove they did not exist because of the lack of a
            source document reference to help us find the transaction. As a result of the
            missing transactions, abnormal balances that consisted of both over and
            understatements at the transaction level were included in the financial reports. 13
            Source documents references were needed to readily trace the posting of:

                •    the budgetary delivered order–obligations, unpaid;

                •    the budgetary delivered order–obligations, paid;

                •    the proprietary accounts payable; and

                •    the proprietary Fund Balance with Treasury transactions.

            While we believe the risk is low that a material misstatement was reported in the
            SF-133 and financial statements because of the abnormal balances, 14 fund holders
            and program managers could not rely on the accounting data at the program or
            activity level to monitor the status of their funds to base their programming and
            budgetary decisions.




11
     Sample numbers 5, 7, and 21.
12
      The transactions we attempted to trace could have been erroneously entered or embedded in a transaction
     that rolled up a number of individual entries.
13
      DFAS personnel did not adjust abnormal balances at the transaction level. According to DFAS
     personnel, they adjusted abnormal balances at the appropriation level.
14
     The over and understatements would have offset each other, minimizing the risk of material
     misstatement.



                                                       7
System Integration
              We attributed the general processing and internal control weaknesses to a lack of
              integration between the GAFS-R, GAFS-BL, IAPS, and MOCAS systems and
              personnel actions affecting both manual and systematic processes and operations.

              Recognizing the Financial Event. Air Force and DFAS accounting and finance
              systems were not designed to integrate, either by system interface or personnel
              input, transactions as of the date that financial events transpired. Specifically, an
              interrelationship between the GAFS-R, GAFS-BL, IAPS, and MOCAS software,
              hardware, personnel, procedures, controls, and data did not exist to ensure
              transactions are recognized as of the date financial events transpire. However, we
              believe an interrelationship is achievable with changes to the current system
              software, hardware, controls, and data. Personnel training and procedures are
              needed to ensure that personnel properly enter the date that financial events
              transpired. We believe the systems’ changes are achievable because:

                  •    GAFS-R can presently recognize the date that financial events transpired
                       for inclusion in the financial reports and statements;

                  •    GAFS-BL can presently recognize the date that financial events transpired
                       for interface with GAFS-R;

                  •    IAPS can recognize the date goods or services are received and payment is
                       made for integration with GAFS-BL; 15 and

                  •    MOCAS can recognize the date goods or services are received and
                       payment is made for integration with GAFS-BL. 16

              Foreign Currency Transactions. DFAS, in accounting for foreign currency
              transactions, calculates and recognizes gains and losses at the time payment is
              made in accordance with DoD Financial Management Regulation. However, the
              Financial Management Regulation is not consistent with GAAP, which requires
              the recognition of gains and losses on the date of the payable. While the Federal
              Accounting Standards Advisory Board (FASAB) has not issued guidance
              addressing this issue, the Department of the Treasury has proposed a scenario for
              recording these transactions in the USSGL in accordance with GAAP.
              Consequently, DoD must change its policy to recognize GAAP in accounting for
              foreign currency transactions. We believe IAPS could accommodate the correct
              processing of foreign currency transactions.




  15
        DFAS personnel recognize a change is needed in IAPS to process the date goods or services are
       received. IAPS currently reflects the date that goods or services are accepted by the Government.
  16
       The recognition of receipt in GAFS–BL could be interfaced with the MOCAS Material Acceptance and
       Accounts Payable Report.



                                                          8
            Posting of Contract Holdbacks and Unfunded Liabilities. Contract holdbacks
            were not posted as liabilities in the accounting records because:

            •   DFAS personnel, who were responsible for certifying payment in IAPS, did
                not report the holdbacks even though the amounts were shown as deductions
                on the hardcopy invoices and detail information; or

            •   vendors, who submitted invoices electronically, could not report the
                holdbacks through electronic submission. The electronic format did not have
                a field for entering and reporting the holdback.

            Unfunded liabilities were not posted in the accounting records because DFAS
            personnel had not developed adequate internal control procedures to report the
            unfunded liabilities. Effective internal control measures should prompt personnel
            to report all unfunded liabilities when:

            •   vendors report a cost incurred for a period of performance or delivery before
                the execution date of the contract (potential unauthorized commitment),
                whether or not the invoice passed pre-validation; 17

            •   DFAS personnel reject an invoice because they cannot pre-validate the
                existence of the obligation to make payment (potential unauthorized
                commitment or untimely recorded obligation); and

            •   vendors report an amount withheld for cost incurred in excess of the
                unliquidated balance of the obligation for a contract line item (inadequate line
                item funding).

            Edit Checks. The edit checks discussed in this report did not exist because Air
            Force and DFAS systems were not integrated to recognize transactions as of the
            date financial transactions transpired in accordance with FASAB and GAAP.
            Effective internal edit checks exist when systems are integrated and critical data
            can be correlated to perform edit checks, such as those mentioned, to ensure
            compliance with laws and regulations.

            Locating Source Documents. GAFS-BL and GAFS-R transactions did not
            provide source document references because the GAFS-BL, IAPS, and MOCAS
            systems were not integrated and procedures were not established to ensure a
            source document reference was processed to record the receipt of goods and
            services, and the payments made to vendors.




17
      Under the existing rules for pre-validation, DFAS personnel are required to reject paying an invoice if
     funds are not adequate or not obligated on contract. However, the DFAS rejection of the invoice would
     not preclude personnel from processing the transaction necessary to recognize the unfunded liability.



                                                        9
Conclusion
           A high risk exists that periodic and annual financial statements were unreliable
           and materially misstated in FYs 2003 through 2004. Left uncorrected, the
           internal control weaknesses could affect future reports, adversely affecting those
           who use the reports in their decision-making.

           It is management’s responsibility to establish and maintain efficient and effective
           internal control over financial reporting. 18 Consequently, Air Force and DFAS
           personnel must work together to integrate existing systems when it is possible and
           cost effective. In our opinion, the internal control weaknesses related to
           recognizing transactions as of the date financial events transpired, and providing
           source document references, are correctible within existing systems. We consider
           both conditions material weaknesses because the deficient conditions affect all
           transactions in the universe, presenting a high risk that the reports and financial
           statements were materially misstated.

           We consider the remaining internal control weaknesses reportable, but not
           necessarily material weaknesses. However, these weaknesses could, at the
           aggregate level, materially misstate the reports and financial statement lines. The
           reportable weaknesses relate to foreign currency gains and losses, unrecorded
           contract holdbacks, unfunded liabilities, and accounts payables that were
           bypassed as a result of processed straight pay transactions. The non-recognition
           of unfunded liabilities in the accounting records are potentially material to any
           management assertions made related to compliance with laws and regulations.

           The absence of edit checks within existing Air Force and DFAS systems is a
           potentially material weakness. Effective edit checks ensure compliance with laws
           and regulations, such as appropriation laws 19 and the FAR. Because we have
           identified at least one instance where vendors started work prior to the execution
           of the contract 20 and vendors performed work under cost contracts in excess of
           the amount obligated for delivery of the line item, 21 we believe the risk is high
           that these conditions exist in numerous other Air Force contracts.


Management Comments on the Finding and Audit Response
           Management Comments. The Central Site Director, Defense Finance and
           Accounting Service, Denver, did not concur with the finding, stating that the

18
     Office of Management and Budget (OMB) Circular A-123, “Management’s Responsibility for Internal
     Control,” December 21, 2004.
19
 Throughout this series of reports we have identified violations of section 1502, title 31, United States
 Code and section 2410a, title 10, United States Code. If effective edit checks existed, we believe that Air
 Force management would have been notified of the potential violation for immediate followup.
20
     DoD IG Report of Audit D-2006-056, Report on Vendor Pay Disbursement Cycle, Air Force General
     Fund: Contract Formation and Funding, finding B.
21
     Sample number 26.



                                                    10
    limited sample of 45 items used does not provide a sufficient basis for projecting
    results to the total contracts loaded in the IAPS and MOCAS systems. The
    Director further stated that internal control was adequate and the related risk is
    low.

    Audit Response. We disagree that the limited sample does not provide sufficient
    basis for our conclusions or that internal controls are adequate. Our use of a
    45-item sample to assess internal control is a generally accepted governmental
    auditing standard established in the Government Accountability Office and
    President’s Council on Integrity and Efficiency Financial Audit Manual. It
    requires auditors to examine risk to determine the nature, timing, and extent that
    substantive testing is necessary to determine if a material internal control
    weakness or misstatement of the financial statements exists. The criteria states
    that in a sample of 45 items, one defect indicates that the risk is high that a
    potential material internal control weakness, or misstatement in the financial
    transactions, may exist.

    In addition, these deficiencies are more meaningful because the results relate to
    the processing of automated transactions. Thus, groups of identical transactions
    are processed consistently and any deficiencies will occur consistently in all
    similar transactions. For example, we reported a contract holdback that was not
    recognized in the Air Force accounting records in accordance with Federal
    Acquisition and Defense Federal Acquisition Regulation Supplement policy. The
    risk is not limited to this one unrecognized contract holdback, but what the defect
    represents in relation to all similarly processed transactions.




Recommendations, Management Comments, and Audit
  Response
    We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller) and the Director, Defense Finance and
    Accounting Service, coordinate and direct the:

            1. System changes and integration of the General Accounting and
    Finance System–Base Level, Integrated Accounts Payable System, and
    Mechanization of Contract Administration Services systems so that the
    General Accounting and Finance System–Rehost recognizes transactions as
    of the date the financial events transpired, and all source document
    references are provided and transactions can be readily traced to the
    supporting documents.

    Management Comments. The Central Site Director, Defense Finance and
    Accounting Service, Denver partially concurred with the recommendation,
    agreeing to evaluate the potential for daily interfaces of receipt transactions from
    the MOCAS system to ensure timelier posting of the accounts payable to the
    general ledger. The estimated completion date for that evaluation is June 1, 2007.


                                         11
However, the Central Site Director, Defense Finance and Accounting Service,
Denver, did not concur that the references for the receiving documents, invoices,
and vouchers are not available. He stated that the references are posted in either
the entitlement or Air Force accounting system, General Accounting and Finance
System, depending on the category of the document. Disbursement voucher
information is available in the GAFS-BL or the MOCAS entitlement system.
Invoice and receipt information is available in the IAPS and MOCAS system. He
added that the systems reviewed during the audit, the IAPS and MOCAS system,
should be considered extensions or subsidiary ledgers to the core accounting
systems and thereby, through referential integrity, provide the documentation
references identified in this recommendation.

The Director further stated that all financial transactions are posted in the
GAFS-R general ledger in the appropriate accounting month. The posting of the
receipt and disbursement records in the IAPS and MOCAS system, as subsidiary
ledgers, are the official accounting records. Therefore, the transactions are posted
and recorded on the date of the financial event. Transactions not posted as part of
the daily interface are included in the end-of-month accrual process. The accrual
process, for both IAPS and MOCAS system, includes the financial events that are
not posted in the daily accounting records, and are included in the financial
records before the end of the reporting period.

The Assistant Secretary of the Air Force (Financial Management and
Comptroller) did not respond to the recommendation.

Audit Response. The Central Site Director, Defense Finance and Accounting
Service, Denver, comments are not responsive. The General Accounting and
Finance System–Rehost was developed to serve as the Air Force standard general
ledger and implement the United States Standard General Ledger requirements to
interface with the Defense Departmental Reporting System which is used to
prepare the financial statements. We attempted to trace the recording of the
budgetary and proprietary transactions in the GAFS-R from the supporting
documents to the transactions posted in the general ledger. DoD Financial
Management Regulation, volume 1, chapter 2, December 1998, states that a
general ledger and its subsidiary ledgers serve as a source database, data must be
edited, validated, and in some instances, computed before it is integrated into an
accounting system. Data needed to record a transaction should be entered only
once and transferred to appropriate accounts in the accounting system. For those
individual transactions that we examined in the general ledger, we could not trace
numerous transactions in the budgetary and proprietary accounts because all of
the necessary data was not transferred to the general ledger. A match by source
document reference and financial event date is needed to trace the entries made in
the general ledger and have reasonable assurance that transactions are accurately
recognized in the general ledger and disclosed in the financial statements in
accordance with generally accepted accounting principles. The Director stated
that the IAPS and MOCAS system are subsidiary ledgers and should be accepted
as extensions of the core financial systems. This is possible only if all of the data
needed to ensure referential integrity existed between the general ledger as the
control account and the subsidiary ledgers. We could not trace transaction
amounts by source document reference and date from the control account to the


                                     12
subsidiary ledgers, thus we do not have reasonable assurance that all transactions
are accurately posted to the general ledger.

Generally accepted accounting principles do not state that transactions should be
posted in the appropriate accounting month. Rather, they require transactions to
be recognized on the date the financial event occurred and matched to the
accounting period in which the event occurred. We identified numerous
budgetary and proprietary transactions where the dates of the commitment;
undelivered order, unpaid; delivered order, unpaid; accounts payable; delivered
order, paid; and disbursement were not recognized on the date of the financial
events. As for the delivered order, unpaid; and accounts payable; we determined
the IAPS accounts payable date was not based on the date that goods or services
were received, but was based on the date the Government accepted the goods or
services. Even if the IAPS had the correct date, that date was not recorded in the
GAFS-BL system for proper recognition in the GAFS-R system general ledger.
Additionally, the accounts payable date was not passed from the MOCAS system
to the GAFS-BL and GAFS-R systems. Neither the IAPS nor MOCAS system
passed the payment date to the GAFS-BL and GAFS-R systems. As a result, the
GAFS-BL and GAFS-R systems did not reflect the actual dates of the accounts
payable and cash disbursement. For the Director’s statement that the IAPS and
MOCAS system are subsidiary ledgers that eliminate the need to recognize the
date of the financial events in the general ledger to be accurate, the subsidiary
ledgers would have to post to the control accounts as of the effective date of the
financial event. To the extent the GAFS-R, as the general ledger, allows an
accounts payable or cash disbursement to process on a transaction basis, the
general ledger must reflect the date of the financial event for proper recognition
on the date and in the period that the event (goods or services were received, or
cash payment was made) occurred.

The Federal Accounting Standards Advisory Board upholds the use of estimates
for recording accruals in financial statement reporting. However, an estimate
should not be used if the actual payable amount is known prior to the preparation
of the financial statements. In addition, a means must exist to reconcile the
transaction estimate to the actual amount reported in the control account and
subsidiary ledgers. Although we did not examine the estimates that DFAS
reportedly used in lieu of processing the actual transactions, we did identify
accounts payable and cash disbursement transactions reported with effective dates
in a subsequent accounting period where the financial events occurred in the prior
period. Unless DFAS is able to match each accrual to its actual transaction
through its subsidiary ledgers and adjust the balance, the accounts payable will be
overstated in the subsequent accounting period and a valuation error could exist in
the prior period.

       2. System changes and integration of the Integrated Accounts
Payable System, General Accounting and Finance System–Base Level, and
General Accounting and Finance System–Rehost to process foreign currency
fluctuation gains and losses in accordance with generally accepted
accounting principles.

Management Comments. The Central Site Director, Defense Finance and
Accounting Service, Denver, nonconcurred and stated that foreign currency gains


                                    13
and losses were processed in accordance with the DoD Financial Management
Regulation. He further stated that if the regulation is not in compliance with
generally accepted accounting principles, the DoD Inspector General should
direct the recommendation to the Office of the Secretary of Defense, Comptroller.

The Assistant Secretary of the Air Force (Financial Management and
Comptroller) did not respond to the recommendation.

Audit Response. The Central Site Director, Defense Finance and Accounting
Service, Denver, comments are not responsive. While we agree that coordination
with the Office of the Secretary of Defense, Comptroller is necessary, DFAS
maintains the accounting systems and prepares the annual financial statements.
The DoD Inspector General opines on the financial statements based on
compliance with generally accepted accounting principles; therefore, if DFAS
does not follow those principles it is appropriate for the DoD IG to recommend
action to bring the accounting systems and financial statements into compliance.
We confirmed that DoD did not have a waiver from implementing the generally
accepted accounting principles for foreign currency fluctuations.

       3. System change to create an edit in the General Accounting and
Finance System–Base Level to account for a delivered order, unpaid and
account payable prior to or concurrent with a disbursement. The goods or
services receipt date (financial event) must be shown as the effective date of
the delivered order, unpaid and account payable entry so the transaction can
be properly recognized as a prior period event requiring a prior period
adjustment to the financial statements or a current period event.

Management Comments. The Central Site Director, Defense Finance and
Accounting Service, Denver, nonconcurred and stated that the recommendation
will not achieve the intended benefit of “ensuring liabilities are recognized in the
period that goods or services are received.” The Director comments addressed
the daily and monthly processing interfaces between the IAPS and MOCAS
system with the GAFS-BL. The Director also stated that because the MOCAS
system is a subsidiary ledger, not posting the financial event date in the general
ledger is a non-issue. The GAFS-BL does not determine when a disbursement is
due; it only records the disbursement transaction after an entitlement system has
determined that all requirements are met for payment by the correct date. An edit
to prevent recording a proper disbursement because the receipt was not posted in
the accounting system would only delay payment. If the disbursement is already
made, then the edit would delay recording the accounting transactions.

The Assistant Secretary of the Air Force (Financial Management and
Comptroller) did not respond to the recommendation.

Audit Response. The Central Site Director, Defense Finance and Accounting
Service, Denver, comments are not responsive. In our response to comments on
recommendation 1, we discussed the IAPS and MOCAS system as subsidiary
ledgers. Unless DFAS can reconcile the subsidiary ledgers to the control account
by source document reference and date, either through the monthly accounts
payable and cash disbursement journal entries or on a transaction basis, it cannot
provide reasonable assurance that all transactions are recognized on the date and


                                     14
in the accounting period the financial events occurred. The purpose of the
recommended edits is to ensure that all accounting transactions, both budgetary
and proprietary, are posted in the accounting period that the financial event
occurred for disclosure in the financial statements, or as subsequent events or a
prior period adjustment requiring potential correction in the prior and current
accounting periods. Because a proper payment should not be made without
evidence of receipt and acceptance, it is expected the payable existed and could
have been recognized prior to the making and posting of the disbursement. For
straight pay transactions, the payables should be processed with the dates that
goods or services were received prior to, but concurrent with, the disbursement
transactions to ensure the payables are properly recognized. For interim
payments related to contract financing or cost reimbursement contracts for
services, we realize that receipt and acceptance is not required within the
MOCAS system. However, a payable for constructive acceptance as of the last
date of the vendor’s billing cycle should be recorded for proper recognition in the
accounting period. Based on the number of deficiencies related to the
completeness assertion and the related risk, we expect DFAS to evaluate their edit
capabilities to minimize this risk.

        4. System changes, personnel training, and processing procedures in
the Mechanization of Contract Administration Services system to ensure
processing of contract holdbacks and unfunded liabilities for integration
with the General Accounting and Finance System–Base Level and Rehost
systems. This includes recording an account payable when DFAS personnel
reject an invoice because an obligation does not exist or the unliquidated
balance is not sufficient to pay the vendor.

Management Comments. The Central Site Director, Defense Finance and
Accounting Service, Denver, nonconcurred with the recommendation and stated
that true contract holdback amounts for MOCAS payments are classified as
accounts payable and the system issues monthly reports for contract holdbacks
that are processed by accounting activities in accordance with established
procedures. He also stated that the examples in the draft report were not true
contract holdbacks and would not have been recorded as accounts payable. One
example was a deduction for a fixed fee over the ceiling so no liability existed at
that time. The Director further stated that unfunded liabilities arise when
Congress authorizes the Government to enter into contracts in advance of
appropriations. These contracts are not entered into the MOCAS system without
appropriations, and accounts payable are established only when a corresponding
obligation and associated appropriation are in the system. When an invoice is
received and a corresponding contract cannot be found, DFAS personnel contact
the administrative contracting officer and use research tools to determine if a
valid obligation exists. If an obligation cannot be determined, the invoice is
returned to the contractor in accordance with the Prompt Payment Act. Finally,
the Director stated that DFAS Columbus does not reject invoices because of
insufficient unliquidated obligations. Research is done to determine how to
correct the insufficiency and process the payment. The payable would have
already been recorded at the time the insufficient unliquidated obligation was
discovered.

The Assistant Secretary of the Air Force (Financial Management and


                                     15
Comptroller) did not respond to the recommendation.

Audit Response. The Central Site Director, Defense Finance and Accounting
Service, Denver, comments are partially responsive. According to the U.S.
Treasury United States Standard General Ledger chart of accounts and
Department of Defense Financial Management Regulation, contract holdbacks are
not accounts payable, and should be recorded in general ledger account 2130 and
reported in the financial statements as other liabilities. Management comments
addressed one (sample number 4) of the two samples in the contract holdbacks
section of the draft report, but not the other (sample number 36). Upon further
review, we agree that sample number 4 is not a contract holdback. However,
sample number 36 is a contract holdback, and management needs to address the
circumstances surrounding that contracting action. Those circumstances represent
a risk that all like transactions are not correctly recognized in the accounting
records.

         As we stated in the report, unfunded liabilities can legally exist when
Congress has authorized the Government to enter into contracts in advance of an
appropriation. We provided a reference to contracts let by the United States Corp
of Engineers as an example. However, in sample numbers 4 and 26, the vendors
performed services prior to the execution of the delivery orders. Thus,
obligations were not recorded in the official accounting records until after the
orders were executed and processed in the financial system. According to the
United States Standard General Ledger, future funded expenses (account 6800)
are recognized without the posting of a budgetary entry. Therefore,
management’s assertion that a liability cannot be posted without a corresponding
obligation in the system is not in compliance with the U.S. Treasury requirements.
During the audit, we identified two instances (sample numbers 4 and 26) where
liabilities were incurred prior to the execution and funding of the order. The Air
Force, in commenting on our first report on this subject (Report on Vendor Pay
Disbursement Cycle, Air Force General Fund: Contract Formation and Funding,
D2006-056, March 6, 2006), agreed to conduct a preliminary investigation into
the propriety of the contracting action (sample number 4), and agreed that the
memorandum sent by the contracting officer that resulted in the vendor starting
work prior to the execution of the order was not appropriate (sample number 26).
However, we believe the financial systems should have the capability to
recognize the liabilities, either as an account payable or a contingent liability,
depending on the circumstances, without the existence of any budgetary entries.
When vendors perform work in good faith and incur liabilities, those liabilities
should be recognized in the accounting records. In each of the examples
provided, the critical issue is the system’s capability to process a transaction that
discloses a financial event, whether the event is legal or not. In the case of
sample number 4, the work performed improperly as an unauthorized constructive
change should likely be disclosed as a contingent liability. On the other hand, the
contracting officer’s direction to a vendor to commence work prior to the
execution of the order (sample number 26) was not illegal, but was inappropriate.
In both cases, we believe the accounting systems should have procedures and
processes in place to recognize the costs in the proprietary general ledger of the
official accounting records without an entry made in the budgetary accounts.
While DFAS personnel could not legally pay the vendors until an obligation is



                                     16
recorded in the budgetary general ledger accounts, the absence of the obligation
does not mean a liability did not exist and should not have been recognized.

       5. System changes to create an edit to notify Air Force personnel
when vendors are incurring costs, based on the recording of the payable or
vendors indicating performance, without a proper, sufficient, and timely
obligation recorded to pay for the goods or services.

Management Comments. The Central Site Director, Defense Finance and
Accounting Service, Denver, nonconcurred with the recommendation and stated
that DFAS Columbus personnel do not have the information to discern if vendors
are incurring costs without proper, sufficient, and timely obligations. He stated
that DFAS relies on the reviews performed by the Defense Contract Audit
Agency, and evaluations performed by the administrative contracting and
purchasing contract officer, to ensure vendors are not incurring costs without a
valid obligation, and that costs are valid. The Director further stated that the
proposed system changes to record a payable without an obligation cannot be
accomplished in the MOCAS system. For any contract payment system to
generate an accounts payable, the appropriations must be in the contract record
and line items must be established in the schedule record. In the MOCAS system,
an account payable can only be recorded with a proper and sufficient obligation.

The Assistant Secretary of the Air Force (Financial Management and
Comptroller) did not respond to the recommendation.

Audit Response. The Central Site Director, Defense Finance and Accounting
Service, Denver, comments are not responsive. The Federal Accounting
Standards Advisory Board, Statement of Federal Financial Accounting Standards,
requires payables to be disclosed even when budgetary resources do not exist. As
previously stated, the U.S. Treasury United States Standard General Ledger also
provides for recognition of a liability in the proprietary accounting records, even
though no budgetary entries are made. The Director stated that a payable cannot
be recognized in the MOCAS system without existence of the obligation in the
accounting system; therefore, no liabilities can exist for posting to the subsidiary
ledger and general ledger. The administrative delay in recording the obligation
does not negate the existence of the liability in the period that it was incurred.
Hence, the recording of the liability, consistent with the Statement of Federal
Financial Accounting Standards and the United States Standard General Ledger,
is necessary for full disclosure in the period that the financial event occurred.
DFAS personnel’s inability to pay an invoice if an adequate unliquidated
obligation is not on contract should not prevent the recording of the liability. In
addition, the recording of the proprietary accounts payable without an offsetting
obligation is an appropriate control to notify Air Force personnel of a potential
administrative error or oversight in the processing of the obligation.

       6. Development of the accounting guidance and procedures to ensure
Air Force personnel enter the correct dates that financial events transpired
and the source document references once the system changes are made, as
recommended in 1 - 5.

Management Comments. The Director, Air Force Accounting Policy and


                                     17
Compliance (Financial Management) responded for the Assistant Secretary of the
Air Force (Financial Management and Comptroller). He provided general
comments, agreeing to work with DFAS Denver to ensure policy is implemented
depending on systemic changes recommended in the report. However, the
Director stated that he is concerned that there was no mention of compensating
controls in the report, and wants to ensure there is continuity in audit’s approach
with other independent audit efforts.

The Central Site Director, Defense Finance and Accounting Service, Denver, did
not comment on the recommendation, deferring to the Air Force for comment.

Audit Response. The Director, Air Force Accounting Policy and Compliance
(Financial Management) comments are partially responsive because DFAS only
partially concurred with recommendation 1 and nonconcurred with
recommendations 2 through 5. We did not mention compensating controls in the
report because we did not identify any during the audit. Because the Secretary of
the Air Force is responsible for the Air Force financial statements, we believe that
the Assistant Secretary of the Air Force (Financial Management and
Comptroller), and the Director, Defense Finance and Accounting Service must
work together to examine the accounting policies, processes, and procedures that
require correction or strengthening to mitigate the risk that a material internal
control weaknesses exists, or that a material misstatement in the financial
statements could be made.

We request the Assistant Secretary of the Air Force (Financial Management and
Comptroller) and the Central Site Director, Defense Finance and Accounting
Service, Denver, to reconsider their positions on recommendations 1 through 6,
and provide final comments to the report by April 9, 2007.




                                     18
Appendix A. Scope and Methodology
This is the fourth in a series of reports examining internal control and compliance
with laws and regulations of the Air Force General Fund vendor pay disbursement
cycle. In this report, we discuss the outcome of tests of the processing of
commitments, obligations, and expenditures in the accounting records for
45 contracting actions. We examined the transactions that were posted to both the
budgetary and proprietary chart of accounts. We performed internal control tests
to determine whether the financial events were posted to the accounting records in
accordance with the Federal financial accounting standards and GAAP. The
financial events were related to: (1) the certification of fund availability,
(2) execution of the contracting actions, (3) delivery of the goods or services, and
(4) payment of the invoices.

In our examination of the 45 contracting actions (which included funding
modifications), we examined the contract file documentation for each sample to
determine the timing, nature, character, and terms and conditions related to the
action as a financial event. We also obtained copies of the funding documents for
the contracting action. Based upon the contract data gathered, we traced the
delivery of the goods or services through receipt and acceptance by the
Government, invoice certification, payment, and recognition of the related
transactions in the budgetary and proprietary general ledger accounts in the
official accounting records.

We performed this audit from January 2004 through May 2006 in accordance
with generally accepted government auditing standards. Our review of the
transactions and the financial events related to the deliveries and payments made
against the contracting actions during the period October 2003 through June 2004,
except for those actions that were funding modifications. We reconstructed the
funding and payment histories for all funding modifications back to the inception
of the basic order or contract. Because of the length of time that transpired in the
completion of this audit and the report series, we followed up with personnel in
May 2006 to determine whether management had taken corrective action to the
deficiencies identified in this report.
Use of Computer-Processed Data. We relied on data from the General
Accounting and Finance System–Rehost, General Accounting and Finance
System–Base Level, Integrated Accounts Payable System, Mechanization of
Contract Administration Services, and Electronic Document Access systems.
However, we did not perform a formal reliability assessment of those systems.
Instead, we compared the system data by tracing the hardcopy contract, funding,
invoices, receiving documents, and payment vouchers to the transactions recorded
in the accounting system.

Use of Technical Assistance. The Office of General Counsel, Office of the
Inspector General, assisted in the review of the legality of the contracting actions
and funds used to pay vendors identified in this report. In addition, personnel
from the Quantitative Methods Division, Office of the Inspector General, assisted
in the development of the statistical analysis presented in this report.



                                     19
    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    addresses issues related to the Defense Financial Management high-risk area.


Prior Coverage
    During the last 5 years, DoD IG has issued three reports related to the Air Force
    General Fund vendor pay disbursement cycle. Unrestricted DoD IG reports can
    be accessed at http://www.dodig.mil/audit/reports.


DoD IG

    DoD IG Report No. D-2007-027, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Payments to Vendors,” November 24, 2006

    DoD IG Report No. D-2006-085, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Funds Control,” May 15, 2006

    DoD IG Report No. D-2006-056, “Vendor Pay Disbursement Cycle, Air Force
    General Fund: Contract Formation and Funding,” March 6, 2006




                                        20
Appendix B. Critical Guidance
The following laws and regulations apply to this audit report. As stated, management is
responsible for internal control over the reliability of financial reporting. The Federal
financial accounting regulations that follow OMB Circular A-123, which covers
management’s responsibility for internal control, establish the financial management
system requirements and accounting principles germane to this report. The budgetary
reports and financial statements affected by this guidance are presented in Appendix C.

                        Office of Management and Budget (OMB)

OMB Circular A-123, “Management’s Responsibility for Internal Control,”
December 21, 2004, states that “Internal control over financial reporting is a process
designed to provide reasonable assurance regarding the reliability of financial reporting.”
If financial information is reliable, the Air Force can reasonably assert that:

       •       all reported transactions actually occurred during the reporting period and all
               assets and liabilities exist as of the reporting date (existence and occurrence);

       •       all assets, liabilities, and transactions that should be reported have been
               included and no unauthorized transactions or balances are included
               (completeness);

       •       all assets are legally owned by the agency and all liabilities are legal obligations
               of the agency (rights and obligations);

       •       all assets and liabilities have been properly valued, and where applicable, all
               costs have been properly allocated (valuation);

       •       the financial report is presented in the proper form and any required disclosures
               are present (presentation and disclosure);

       •       the transactions are in compliance with applicable laws and regulations
               (compliance); and

       •       documentation for internal control, all transactions, and other significant events
               is readily available for examination.

OMB Circular A-127, “Financial Management Systems,” July 23, 1993, states the
following.

•      In the use of the United States Standard General Ledger (USSGL) at the
       transaction level, the recording of transactions is based on the financial event that
       transpired. A financial event is any occurrence having financial consequences,
       and includes the acquisition of goods or services and payments made to vendors.

•      Integration of financial management systems, by design, provides for effective
       and efficient interrelationships between software, hardware, personnel,
       procedures, controls, and data contained within the systems. The integration of


                                                  21
       systems provides for common transaction processing and consistent internal
       control to assure the validity of information and protection of Federal
       Government resources.

             Federal Financial Management Improvement Act (FFMIA)

The FFMIA of 1996 states that a Federal agency’s ability to trace source documents to
the USSGL indicates transactions are processed at the transaction level.


              Federal Accounting Standards Advisory Board (FASAB)

FASAB Statement of Federal Financial Accounting Standards (SFFAS), No. 1,
“Accounting for Selected Assets and Liabilities,” March 30, 1993, stated the following:

•   Recognition is defined as the formal recording of an item in the records and financial
    statements as an asset, liability, expense, revenue, or similar element.

•   For financial statement purposes, personnel recognize liabilities when goods or
    services are received or are recognized based on an estimate of work completed under
    a contract or agreement.

•   In budgetary accounting, a Federal agency records an obligation when the entity
    places a purchase order or signs a contract.

•   Federal agencies disclose liabilities when budgetary resources do not exist.

FASAB, “Statements of Federal Financial Accounting Standards,” volume II, Current
Text, June 2004, provides the following definition of accrual accounting.
               Records the effects on a reporting entity of transactions and other
               events and circumstances in the periods in which those transactions,
               events, and circumstances occur rather than only in the periods in
               which cash is received or paid by the entity. Accrual accounting is
               concerned with an entity’s acquiring of goods and services and using
               them to produce and distribute other goods and services. It recognizes
               that the buying, producing, selling, distributing, and other operations of
               an entity during a period, as well as other events that affect entity
               performance, often do not coincide with the cash receipts and payments
               of the period.

FASAB, SFFAS No. 7, “Accounting for Revenue and Other Financing Sources,”
April 1996, provided the following statement on budgetary accounting.
               The budget provides the principal basis for planning and controlling
               obligations and expenditures by Government entities. Budget execution
               tracks the flow of budgetary resources from the congressional
               authorizing and appropriating process, to the apportionment, allotment,
               and obligation of the budgetary resources, to the outlay of cash to
               satisfy those obligations. For the most part, obligations and cash, rather
               than accrual accounting, are the bases for budgeting and reporting on
               budget execution.


                                                  22
                        Generally Accepted Accounting Principles (GAAP)

Financial Accounting Standards Board, Statement of Financial Accounting Standards No. 52,
“Foreign Currency Translation,” December 1981, provides guidance related to foreign currency
transactions.

                     Foreign currency transactions are transactions denominated in a
                     currency other than the entity’s functional currency. Foreign currency
                     transactions may produce receivables or payables that are fixed in
                     terms of the amount of foreign currency that will be received or paid.

                     Further, the document states: at the date the transaction is recognized,
                     each asset, liability, revenue, expense, gain, or loss arising from the
                     transaction shall be measured and recorded in the functional currency
                     of the recording entity by use of the exchange rate in effect at that date.
                     At each balance sheet date, recorded balances that are denominated in a
                     currency other than the functional currency of the recording entity shall
                     be adjusted to reflect the current exchange rate.

                     Lastly, transaction gains or losses result from a change in exchange
                     rates between the functional currency and the currency in which a
                     foreign currency transaction is denominated. They represent an
                     increase or decrease in (a) the actual functional currency cash flows
                     realized upon settlement of foreign currency transactions and (b) the
                     expected functional currency cash flows on unsettled foreign currency
                     transactions. 22




22
      The foreign currency transaction gain or loss results from exchange rate fluctuations occurring between
     the goods or services receipt date and the disbursement date and is not the result of any speculative or
     hedging transaction.




                                                        23
Appendix C. Financial Reports and Statements
The following budgetary and financial reports apply to this audit report. Management’s
responsibility for the internal control necessary to ensure the reliability of these reports is
presented in Appendix B.

                SF-133, Report on Budget Execution and Budgetary Resources

OMB Circular A-11, “Preparation, Submission, and Execution of the Budget,”
November 5, 2005, states that the SF-133:


           •       Fulfills the requirement in 31 U.S.C. 1511–1514 [sections 1511-1514, title 31,
                   United States Code] that the President review Federal expenditures at least four
                   times a year.

           •       Allows the monitoring of the status of funds that were apportioned on the
                   SF 132 Apportionment and Reapportionment Schedule and funds that were not
                   apportioned.

           •       Provides a consistent presentation of information across programs within each
                   agency, and across agencies, which helps program, budget, and accounting
                   staffs to communicate.

           •       Provides historical reference that can be used to help prepare the President's
                   Budget, program operating plans, and spend-out rate estimates.

           •       Provides a basis to determine obligation patterns when programs are required to
                   operate under a continuing resolution.

           •       Ties an agency's financial statements to their budget execution. The compilation
                   of an agency's SF 133s should generally agree with an agency's Statement of
                   Budgetary Resources.

                                         Financial Statements

OMB Bulletin No. 01-09, “Form and Content of Agency Financial Statements,”
September 25, 2001, 23 defines the use of the financial statements that Federal Agencies
are required to prepare and are affected by the deficiencies identified in this report.

•      Balance Sheet.

                    The balance sheet presents, as of a specific time, amounts of future
                   economic benefits owned or managed by the reporting entity exclusive
                   of items subject to stewardship reporting (assets), amounts owed by the



23
     OMB Bulletin No. 01-09 was superseded by OMB Bulletin No. 136, “Financial Reporting
     Requirements” on August 23, 2005.



                                                     24
          entity (liabilities), and amounts which comprise the difference (net
          position).

          The Balance Sheet relates to the reporting of:

          Fund Balance with Treasury. The aggregate amount of the entity's
          accounts with Treasury for which the entity is authorized to make
          expenditures and pay liabilities. This account includes clearing account
          balances and the dollar equivalent of foreign currency account
          balances.

          Accounts payable. The amounts owed by the reporting entity for
          goods and services received from other entities, progress in contract
          performance made by other entities, and rents due to other entities.

•   Statement of Budgetary Resources.

          The Statement of Budgetary Resources (SBR) and related disclosures
          provide information about how budgetary resources were made
          available as well as their status at the end of the period. It is the only
          financial statement predominantly derived from an entity’s budgetary
          general ledger in accordance with budgetary accounting rules, which
          are incorporated into GAAP for the Federal Government. Information
          on the SBR should be consistent with and reconciled to the budget
          execution information reported on the Report on Budget Execution and
          Budgetary Resources (SF 133) and with information reported in the
          Budget of the United States Government to ensure the integrity of the
          numbers presented.

•   Statement of Net Cost.

          The Statement of Net Cost is designed to show separately the
          components of the net cost of the reporting entity's operations for the
          period.

•   Statement of Changes in Net Position.
          The Statement of Changes in Net Position reports the change in net
          position during the reporting period.

          Further, the appropriations used, as reported in this statement, “are
          considered used as a financing source when goods and services are
          received or benefits are provided. This is true whether goods, services,
          and benefits are payable or paid as of the reporting date, and whether
          the appropriations are used for items that are expensed or capitalized.
          Appropriations Used does not include undelivered orders or
          unobligated appropriations.




                                             25
 Appendix D. Contracting Actions Selected for
             Review*




* The FAR does not define a funding modification as a contracting action.



                                                    26
27
28
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform
House Subcommittee on Information Policy, Census, and National Archives, Committee
  on Oversight and Government Reform




                                        30
Department of the Air Force Comments




                     31
Defense Finance and Accounting Service
Comments




                      32
33
34
35
36
37
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Amy J. Frontz
John W. Barklage
David M. Barbour
Mary K. Reynolds
Joshua D. Harcharik
William F. Lanyi
Lam B. Nguyen
Erin S. Hart
James D. Hartman
Lusk F. Penn
